Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 DUAL ELIGIBLES’ TRANSITION: 

    PART D FORMULARIES’ 

       INCLUSION OF 

   COMMONLY USED DRUGS





                    Daniel R. Levinson

                     Inspector General 


                      January 2006

                     OEI-05-06-00090

                        Office
                        Office of
                               of Inspector
                                   Inspector GGeneral
                                 http://oig.hhs.gov
                                                    eneral
                                                http://oig.hhs.gov

       The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
       as amended,
The mission           is to of
              of the Office  protect the General
                               Inspector integrity  of theasDepartment
                                                  (OIG),     mandated by of  Health
                                                                          Public Lawand  Human
                                                                                      95-452,      Services is to
                                                                                               as amended,
protect(HHS)    programs,
        the integrity of theas  well as the
                             Department   ofhealth
                                             Health and   welfareServices
                                                     and Human     of beneficiaries served byasthose
                                                                            (HHS) programs,      well as the
       programs.     This  statutory  mission  is carried  out through   a  nationwide  network
health and welfare of beneficiaries served by those programs. This statutory mission is carried   of audits,
                                                                                                      out
throughinvestigations,   and inspections
         a nationwide network               conducted by the
                                 of audits, investigations, and following
                                                                 inspectionsoperating
                                                                             conductedcomponents:
                                                                                        by the following
operating components:
       Office of Audit Services
OfficeThe
       of Audit  Services
          Office of Audit Services (OAS) provides all auditing services for HHS, either by
       conducting audits with its own audit resources or by overseeing audit work done by others.
The Office  of Audit Services (OAS) provides all auditing services for HHS, either by conducting audits with
       Audits examine the performance of HHS programs and/or its grantees and contractors
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
       in carrying out their respective responsibilities and are intended to provide independent
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
       assessments
intended              of HHS programs
         to provide independent          and of
                                 assessments  operations  in order
                                                HHS programs    and to  reduce waste,
                                                                     operations        abuse,
                                                                                in order       and waste,
                                                                                         to reduce
abuse, mismanagement
       and mismanagement  and  to to
                             and   promote
                                     promoteeconomy
                                             economyandandefficiency
                                                           efficiencythroughout    HHS.
                                                                       throughout HHS.

OfficeOffice of Evaluation
       of Evaluation          and Inspections
                     and Inspections
       The Office of Evaluation and Inspections (OEI) conducts management and program
The Office  of Evaluation and Inspections (OEI) conducts management and program evaluations (called
       evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
inspections) that focus on issues of concern to HHS, Congress, and the public. The findings and
       the public. The findings and recommendations contained in the inspections generate
recommendations contained in the inspections generate rapid, accurate, and up-to-date information on the
       rapid,
efficiency,   accurate, and
            vulnerability, and up-to-date information
                               effectiveness           on the
                                             of departmental   efficiency,
                                                             programs.  OEIvulnerability,
                                                                             also overseesand
                                                                                           State Medicaid
       effectiveness  of departmental    programs.   OEI also  oversees  State Medicaid   Fraud
Fraud Control Units which investigate and prosecute fraud and patient abuse in the Medicaid program.
       Control Units which investigate and prosecute fraud and patient abuse in the Medicaid
Officeprogram.
         of Investigations
       Office
The Office        of Investigations
            of Investigations (OI) conducts criminal, civil, and administrative investigations of allegations of
wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by providers. The
       The Office of Investigations (OI) conducts criminal, civil, and administrative
investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil monetary
       investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
penalties.
       and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
       convictions, administrative sanctions, or civil monetary penalties.
Office of Counsel to the Inspector General
        Office
The Office        of Counsel
             of Counsel             to the
                          to the Inspector    Inspector
                                           General           General
                                                   (OCIG) provides  general legal services to OIG, rendering
advice The
         and opinions  on  HHS   programs  and operations and providing
             Office of Counsel to the Inspector General (OCIG) provides all legal supportlegal
                                                                               general     in OIG’s internal
                                                                                               services to
operations.
        OIG, rendering advice and opinions on HHS programs and operations and providing all and
              OCIG   imposes   program  exclusions and civil monetary penalties  on health  care providers
litigates those actions within HHS. OCIG also represents OIG in the global settlement of cases arising
        legal support in OIG's internal operations. OCIG imposes program exclusions and civil
under the Civil False Claims Act, develops and monitors corporate integrity agreements, develops
        monetary penalties on health care providers and litigates those actions within HHS.
compliance    program guidances, renders advisory opinions on OIG sanctions to the health care community,
        OCIG
and issues     alsoalerts
            fraud    represents   OIG
                          and other    in theguidance.
                                    industry  global settlement of cases arising under the Civil False
        Claims Act, develops and monitors corporate integrity agreements, develops compliance
        program guidances, renders advisory opinions on OIG sanctions to the health care
        community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                      S U M M A R Y                                                  



                  OBJECTIVE
                  To determine the extent to which Medicare prescription drug plan
                  formularies include drugs commonly used by dual eligibles under
                  Medicaid.


                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (MMA) makes comprehensive prescription drug coverage under
                  Medicare Part D available to all Medicare beneficiaries through
                  prescription drug plans (PDP) or Medicare Advantage plans.

                  More than 6 million Medicare beneficiaries are full benefit dual
                  eligibles, i.e., beneficiaries enrolled in both Medicare and Medicaid (for
                  brevity, herein referred to as “dual eligibles”). Until December 31, 2005,
                  dual eligibles received outpatient prescription drug benefits through
                  Medicaid. On January 1, 2006, drug coverage for dual eligibles
                  switched from Medicaid to Medicare.

                  States, Congress, and beneficiary advocates have expressed concern
                  that the movement of dual eligibles to Medicare drug coverage presents
                  unique challenges given the low income and poor health status that
                  characterize this population. In addition, this population is historically
                  hard to reach through outreach and education efforts.

                  In light of these concerns and to avoid disruptions in coverage, the
                  Centers for Medicare & Medicaid Services (CMS) has randomly
                  assigned each dual eligible (except those already enrolled in a Medicare
                  Advantage plan) to a PDP, as required by the MMA. Dual eligibles who
                  did not select a drug plan by December 31, 2005, have been
                  automatically enrolled in their preassigned plans.

                  Medicaid and Medicare drug coverage differ in certain respects. Drug
                  plans under Medicare have more flexibility than State Medicaid
                  programs to set their own formularies and limit coverage of drugs
                  within broad parameters. Also, Medicare drug plans are prohibited
                  from covering certain categories of drugs (“excluded drugs”) that
                  Medicaid programs may opt to cover.

                  We assessed the extent to which PDP formularies include the drugs that
                  dual eligibles commonly used under Medicaid, as differences in coverage
                  may present challenges during dual eligibles’ transition to Medicare.



OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   i
E X E C U T I V E                         S U           M M A R Y


                   We did not assess or compare the overall benefits provided to dual
                   eligibles under Medicaid versus Medicare.

                   We identified 200 of the drugs most highly utilized by the dual eligible
                   population in 2005. These drugs account for approximately 78 percent
                   of prescriptions dispensed to dual eligibles. Of these 200 drugs, 178 are
                   eligible for PDP coverage and 22 are excluded. We reviewed the
                   formularies of PDPs to which dual eligibles are assigned to determine
                   how many of the 178 eligible drugs each formulary includes. Dual
                   eligibles are being assigned to 409 PDPs that use 37 unique formularies.
                   We also interviewed 47 State Medicaid representatives regarding their
                   Medicaid coverage policies for the 22 excluded drugs.


                   FINDINGS
                   Prescription drug plan formularies include between 76 and
                   100 percent of the commonly used drugs we reviewed. The PDP
                   formularies vary in their inclusion of the 178 common drugs in our
                   review that are eligible for PDP coverage. Therefore, random
                   assignment to PDPs may affect the number of dual eligibles who take a
                   specific drug that is not included on their PDP’s formulary. Formulary
                   inclusion of the 178 commonly used drugs ranges from a low of
                   135 drugs (76 percent) to a high of 178 drugs (100 percent).

                   Nineteen percent of formularies include all 178 of the Part D eligible
                   drugs we reviewed; an equal proportion include 151 or fewer (less than
                   85 percent). By formulary, the average rate of inclusion is 92 percent of
                   these commonly used drugs. It is important to note that dual eligibles
                   who take drugs not included by their PDP’s formulary may obtain a
                   prescription for a different drug that treats the same condition, apply
                   for an exception if the nonformulary drug is medically necessary, or
                   switch to a PDP that includes their drug. CMS has urged PDPs to cover
                   a one-time supply of the nonformulary drug to aid in this transition.

                   Nationally, almost one-fifth of dual eligibles (18 percent) are assigned to
                   PDPs that include all 178 drugs in our review. On the other hand,
                   almost one-third of dual eligibles (30 percent) are assigned to plans that
                   include less than 85 percent (151 or fewer) of the 178 commonly used
                   drugs. In every PDP region, at least one plan uses a formulary that
                   includes all 178 of the high utilization drugs in our review. This means
                   that every dual eligible has the opportunity to enroll in a plan that
                   includes all of these commonly used drugs.



 OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   ii
E X E C U T I V E                         S U           M M A R Y


                   Approximately half of the 178 commonly used drugs that we
                   reviewed were included by all formularies. Most of the drugs
                   reviewed are included by the majority of formularies, and in fact, about
                   half of the 178 commonly used drugs (51 percent) are included by all 37
                   formularies. By drug, formulary inclusion ranges from 43 percent
                   (16 formularies) to 100 percent (37 formularies). The average rate of
                   inclusion is 34 out of 37 formularies (92 percent).

                   Certain drugs are omitted from formularies more frequently than
                   others. Of the 178 drugs, 21 drugs (12 percent) were omitted from at
                   least one-fourth of the formularies. CMS staff report that they have
                   reviewed each formulary to verify compliance with minimum
                   requirements and ensure overall adequacy of each formulary. Dual
                   eligibles who are taking a nonformulary drug are therefore able to
                   obtain a different drug that treats their condition and is included on
                   their PDP’s formulary, but they would need to obtain a prescription for
                   the new drug from their physician.
                   Dual eligibles’ access under Medicaid will not change in 45 of
                   47 States for the 22 drugs we reviewed that are statutorily excluded
                   from Medicare Part D coverage. Of the 200 drugs commonly used by
                   dual eligibles, 22 drugs fall into categories that are statutorily excluded
                   from Medicare Part D coverage. States may cover drugs in these
                   categories for dual eligibles under Medicaid. All 47 States interviewed
                   currently provide coverage of at least some excluded drugs. In 45 of
                   these 47 States, dual eligibles will continue to have access to the same
                   drugs currently covered by their Medicaid program after they make the
                   transition to Medicare. One State is eliminating Medicaid coverage of
                   one category of excluded drugs (for all beneficiaries), and another State
                   is eliminating Medicaid coverage of two categories of excluded drugs.


                   CONCLUSION
                   Our review focused on differences between drugs that dual eligibles
                   most commonly used under Medicaid and drugs included in Part D
                   formularies, as these differences may affect the ease of dual eligibles’
                   transition from Medicaid to Medicare.

                   We reviewed 200 drugs commonly used by the dual eligible population
                   in aggregate. Of the 200 drugs, 22 drugs fall into categories excluded by
                   law from PDP coverage, and 178 drugs are eligible for PDP coverage.
                   We compared the 178 Part D eligible drugs to PDP formularies and
                   found that inclusion of these drugs varies.

 OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   iii
E X E C U T I V E                         S U           M M A R Y


                   Because PDP formularies vary, random assignment to PDPs may affect
                   the number of dual eligibles who take a specific drug that is not
                   included on their PDP’s formulary. Dual eligibles have several options
                   to ensure appropriate drug coverage if this occurs. They can apply for
                   an exception for the nonformulary drug. They can get a new
                   prescription from their doctor for a different drug that treats their
                   condition and is included on their PDP’s formulary. They may also
                   choose to switch plans, with new coverage effective the following month.
                   Because each PDP region has at least one plan that includes all 178
                   commonly used drugs we reviewed, every dual eligible has the
                   opportunity to enroll in a plan that includes all of these drugs. Finally,
                   CMS has urged PDPs to cover a one-time supply of the nonformulary
                   drug to aid in this transition.

                   Navigating these options requires a dual eligible to have a certain level
                   of understanding of the Medicare Part D benefit and take specific
                   action. Given the medical and resource challenges faced by this
                   population, dual eligibles may need targeted assistance, in addition to
                   the efforts CMS and State Medicaid agencies have already undertaken,
                   to successfully navigate the transition from Medicaid to Medicare
                   coverage. Reported experiences of some dual eligibles highlight the
                   need for further targeted assistance to this population to ease this
                   transition.

                   OIG will continue to study issues associated with dual eligibles as they
                   make the transition from Medicaid to Medicare Part D.
                   Agency Comments
                   CMS provided comments on the draft report in which it highlighted its
                   concerns with this report. These concerns fall into two general
                   categories: methodology and scope. CMS also provided its own analysis
                   comparing individuals’ drug histories to PDP formularies for a sample
                   of dual eligibles. Despite the differences in our methodologies, CMS’s
                   results were remarkably similar to ours and we believe further support
                   our conclusions. Discussion of CMS’s comments and OIG’s response are
                   included in the conclusion, beginning on page 17. CMS’s comments and
                   analysis are included in Appendix E. CMS also provided technical
                   comments, which we incorporated into the report where appropriate.




 OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   iv
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY ....................................
i



         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 9

                 Formularies include between 76 and 100 percent of common drugs . 9 


                 Half of 178 common drugs included by all PDP formularies . . . . . . 11 


                 Coverage of Part D excluded drugs unchanged in 45 of 47 States . . 14 




         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   Agency Comments and Office of Inspector General Response . . . 16 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 

                 A: Detailed Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . 25 


                 B: The 200 Drugs Included in Our Review. . . . . . . . . . . . . . . . . . . . 30 


                 C: Distribution of Dual Eligibles Among Formularies. . . . . . . . . . . 36 


                 D: Medicaid Coverage of Drugs Excluded from Part D. . . . . . . . … 38 


                 E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55 

Δ   I N T R O D U C T I O N                                                       



                  OBJECTIVE
                  To determine the extent to which Medicare prescription drug plan
                  formularies include drugs commonly used by dual eligibles under
                  Medicaid.


                  BACKGROUND
                  The Medicare Prescription Drug Benefit
                  Effective January 1, 2006, the Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003 (MMA) made
                  comprehensive prescription drug coverage under Medicare Part D
                  available to all 43 million Medicare beneficiaries.1 Beneficiaries
                  generally have the option to enroll either in a stand-alone prescription
                  drug plan (PDP) and receive all other Medicare benefits through fee-for
                  service or to enroll in a Medicare Advantage plan (MA plan) and receive
                  all Medicare benefits (including drug coverage) through managed care.2
                  Private sponsors contract with Medicare to offer PDPs and MA plans in
                  one or more of the PDP or MA regions. The Centers for Medicare &
                  Medicaid Services (CMS) has designated 34 PDP regions and 26 MA
                  regions.3 Each region covers at a minimum one State, and some regions
                  cover multiple States. Plans must cover the entire region in which they
                  are offered. Many sponsors offer more than one PDP or MA plan.
                  Transferring Dual Eligibles from Medicaid to Medicare Drug Coverage
                  Over 6 million Medicare beneficiaries are full benefit dual eligibles, i.e.,
                  beneficiaries enrolled in both Medicare and Medicaid (for brevity, herein
                  referred to as “dual eligibles”). Until December 31, 2005, dual eligibles
                  received outpatient prescription drug benefits through Medicaid.
                  However, pursuant to section 1935(c) of the Social Security Act (the
                  Act), as amended by the MMA, Federal financial participation ended for
                  Medicaid drug coverage for dual eligibles on January 1, 2006.4 Instead,
                  dual eligibles now receive drug coverage through either a PDP or an MA
                  plan.

                  Medicare subsizes Part D coverage for dual eligibles and other
                  beneficiaries who meet minimum resource and income requirements. A
                  regional low-income premium subsidy amount is calculated for each
                  PDP region. A person with limited resources and means who qualifies
                  for extra assistance and who enrolls in a Part D plan will have his or
                  her basic Part D premium subsidized up to the regional low-income
                  subsidy amount for the region in which he or she resides. Thus, for dual

OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   1
I N T R O D        U C T              I O N


                    eligibles enrolled in PDPs that offer standard benefits (or equivalent)
                    with premiums at or below the benchmark, Medicare will pay for drug
                    plan premiums, deductibles, and other cost sharing. Dual eligibles’ cost
                    sharing responsibilities will be limited to copayments of up to $5 per
                    prescription.

                    States are required to make payments, based on a per-capita
                    methodology, to contribute toward dual eligibles’ drug costs under
                    Medicare Part D. These payments are referred to as the phase-down
                    State contribution payments.5
                    States, Congress, and beneficiary advocates have expressed concern
                    that the movement of dual eligibles to Medicare drug coverage will
                    present unique challenges given the fact that dual eligibles have greater
                    health and resource challenges than other Medicare beneficiaries.6
                    Nearly three-quarters of dual eligibles have an annual income of
                    $10,000 or less. Thirty-eight percent have a cognitive or mental
                    impairment. Over a third are disabled. Less than half have graduated
                    from high school. On average, dual eligibles use at least 10 more
                    prescription drugs than nondual eligible beneficiaries. In addition, this
                    population is historically hard to reach through outreach and education
                    efforts.

                    In light of these concerns and to avoid interruptions in coverage, in
                    November 2005, CMS randomly assigned most dual eligibles to PDPs
                    eligible for the full low-income subsidy. Random assignment of these
                    dual eligibles to PDPs was required by the MMA.7 Dual eligibles who
                    were already members of an MA plan (approximately 10 percent of dual
                    eligibles) were passively enrolled in that MA’s drug plan. Dual eligibles
                    who were assigned to PDPs and did not select a different PDP or MA
                    plan prior to December 31, 2005, were automatically enrolled in the
                    PDP to which they were randomly assigned.

                    Unlike the general Medicare population, dual eligibles are permitted to
                    switch plans at any time, with their new plan’s coverage effective at the
                    beginning of the following month.8 This allowance increases dual
                    eligibles’ opportunities to identify and enroll in the plan that best meets
                    their prescription drug needs.
                    Differences in Medicaid and Medicare Drug Coverage Requirements
                    Dual eligibles will encounter some important differences between their
                    current Medicaid drug coverage and their new coverage under Medicare.
                    Generally, Medicaid is required to cover all drugs except for those that
                    fall into a specific list of excludable drug categories. However,

 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   2
I N T R O D        U C T              I O N


                    utilization for Medicaid covered drugs may be controlled by various cost
                    containment measures. For example, States may establish preferred
                    drug lists and may require prior authorization for nonpreferred drugs or
                    step therapy (i.e., requiring a beneficiary to try a less expensive
                    therapeutic alternative before covering the more expensive drug).
                    Twelve States also limit the number of prescriptions per beneficiary per
                    month.9
                    In contrast, Medicare drug plans can establish their own formularies,
                    excluding drugs from formulary inclusion within broad parameters.
                    These parameters are intended to balance beneficiaries’ needs for
                    adequate drug coverage with plans’ needs to contain costs. The
                    minimum statutory requirement is that a formulary must include at
                    least two drugs in each approved therapeutic category and class (unless
                    only one drug is available for a particular category or class), regardless
                    of the drug classification system used.10 CMS may require formulary
                    inclusion of more than two drugs per category or class in cases in which
                    additional drugs present unique and important therapeutic advantages
                    in safety and efficacy, and in which their absence from the plan
                    formulary may substantially discourage enrollment in the plan by
                    beneficiaries with certain diseases.11 In addition, CMS has designated
                    six drug categories for which plans must cover “all or substantially all”
                    of the drugs.12 These six categories are antidepressant, antipsychotic,
                    anticonvulsant, anticancer, immunosuppressant, and HIV/AIDS drugs.

                    Similar to Medicaid, Medicare drug plans may also control access to
                    drugs on their formularies by requiring prior authorization and/or step
                    therapy to obtain drugs. Drug plans may change their formularies but
                    must provide beneficiaries with written notice of such changes and must
                    obtain approval from CMS before deleting a drug from their approved
                    formulary.13
                    CMS Efforts to Ensure an Effective Transition and Comprehensive Coverage
                    for Dual Eligibles
                    Formulary Review. In the Fall of 2005, CMS completed its review of all
                    Medicare drug plan formularies for 2006 to verify that they met
                    minimum requirements. CMS also used narrower drug classifications
                    designated by U.S. Pharmacopeia as “key drug types” to ensure overall
                    adequacy of each formulary.14 CMS also reviewed whether each
                    formulary is consistent with widely used industry best practices and
                    whether benefit management tools (such as step therapy) are applied in
                    a clinically appropriate fashion.15


 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   3
I N T R O D        U C T              I O N


                    Formulary Exceptions. All beneficiaries have the right to request Part D
                    coverage of a nonformulary drug (that is otherwise eligible for Part D
                    coverage) and to appeal denials. A drug plan must provide access to a
                    nonformulary drug if the prescribing physician provides a statement
                    (and supporting documentation upon request) that the nonformulary
                    drug is medically necessary because all drugs on the formulary would
                    not be as effective for the enrollee and/or would have adverse effects.16
                    CMS has developed procedures intended to ensure that beneficiaries
                    receive prompt decisions regarding formulary exceptions.17
                    Transition Process. Drug plan sponsors are required to establish a
                    transition process for new enrollees (including dual eligibles) who are in
                    transition from other drug coverage to Part D and whose current drug
                    therapies may not be included on their drug plan’s formulary. CMS
                    recommends but does not require that sponsors allow a temporary, one
                    time transition supply for new enrollees who are taking a drug that is
                    not included by their drug plan’s formulary.18 This would accommodate
                    the beneficiary’s immediate drug needs the first time that he or she
                    attempts to fill a prescription for a nonformulary drug and allow the
                    beneficiary time to work with the prescribing physician to either switch
                    drug therapies or request a formulary exception.
                    Drugs Excluded From Medicare Part D
                    The MMA excludes certain categories of drugs from Medicare Part D
                    coverage. These are the same categories of drugs that States have had
                    the option to exclude from their Medicaid program. In 2006, this list
                    includes:
                    o Agents when used for anorexia, weight loss, or weight gain;

                    o Agents when used to promote fertility;

                    o Agents when used for cosmetic purposes or hair growth;

                    o Agents when used for the symptomatic relief of cough and colds;

                    o Prescription vitamins and mineral products, except prenatal
                        vitamins and fluoride preparations;
                    o Nonprescription drugs;

                    o Barbiturates; and

                    o Benzodiazepines. 19

                    Beginning in 2007, this list will also include “agents when used for
                    the treatment of sexual or erectile dysfunction, unless such agents are


 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   4
I N T R O D        U C T              I O N


                    used to treat a condition, other than sexual or erectile dysfunction, for
                    which the agents have been approved by the Food and Drug
                    Administration.”20
                    Drugs that are covered under Medicare Part A or Part B are also
                    excluded from coverage under Medicare Part D.
                    State Wraparound Coverage Options
                    State Medicaid programs can claim Federal matching funds for coverage
                    of Part D excluded drugs for dual eligibles. If a State provides coverage
                    of any excluded drugs to its nondual eligible Medicaid population, it
                    must provide that same coverage to its dual eligibles.

                    In addition, States may use State-only funds to offer wraparound
                    coverage to dual eligibles for additional (i.e., nonexcluded) drugs not
                    included by Medicare drug plan formularies. States may provide this
                    supplemental coverage through their Medicaid program or through a
                    State Pharmaceutical Assistance Program (SPAP). SPAPs are
                    voluntary, State-funded programs and do not receive a Federal match.
                    Typically, SPAPs have provided drug coverage assistance to low-income
                    seniors and others who did not qualify for Medicaid coverage. Twenty-
                    seven States have SPAPs that have either received a transitional grant
                    from CMS for MMA or have been recognized by CMS as “qualified”
                    SPAPs.21
                    Drug Coverage Notification Process for Dual Eligibles
                    In addition to general outreach efforts, CMS has developed a three-
                    pronged approach to directly notify all dual eligibles of their impending
                    transition from Medicaid to Medicare drug coverage. This involves
                    mailing directly to dual eligibles notification letters and other materials
                    from CMS, State Medicaid agencies, and the drug plans to which they
                    were assigned.

                    Many States have sent beneficiaries additional information and
                    materials, either with their required official notice of drug coverage
                    change or in separate mailings throughout the Fall of 2005. For
                    example, many States have included information about specific features
                    of the Medicare Part D benefit and transition (e.g., that the dual eligible
                    has a choice of plans) and contact information for sources of assistance
                    (e.g., 1-800-MEDICARE). Some States have taken more proactive steps
                    to assist dual eligibles. For example, a few States planned to send dual
                    eligibles personalized drug profiles that compare their individual drug
                    history to each PDP formulary to help dual eligibles select the plan that
                    best meets their drug needs.

 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   5
I N T R O D        U C T              I O N


                    CMS has developed special protocols and is making available specially
                    trained operators and casework coordinators to provide targeted
                    assistance to dual eligibles. These efforts are intended to address
                    questions or concerns that arise during the transition and respond to
                    issues quickly.22


                    SCOPE AND METHODOLOGY
                    Scope
                    Our assessment of drug coverage for dual eligibles under Medicare
                    Part D included two components: determination of PDP formulary
                    inclusion of commonly used drugs and review of State wraparound
                    coverage policies. We did not assess or compare the overall benefits
                    provided to dual eligibles under Medicaid versus Medicare. Rather, we
                    more narrowly focused our review on dual eligibles’ transition from
                    Medicaid to Medicare.

                    See Appendix A for detailed scope and methodology.
                    Formulary Inclusion. We used aggregate drug utilization data to identify
                    drugs commonly used by the dually eligible population as a whole. We
                    did not assess individual dual eligibles’ prescription drug use or
                    whether individual dual eligibles are assigned to formularies that
                    include the specific drugs that each uses.

                    Our analysis assessed only whether PDP formularies include the
                    specific drugs in our review. We did not assess the overall adequacy of
                    formularies or whether these formularies comply with mandated
                    minimum coverage requirements.

                    Our review included 200 of the most commonly used drugs based on the
                    estimated number of prescriptions dispensed to dual eligibles under
                    Medicaid fee-for-service in the first two quarters of 2005. These drugs
                    account for approximately 78 percent of prescriptions to dual eligibles
                    during this period. Of these 200 drugs, 22 fall into categories excluded
                    from Medicare Part D coverage, and 178 are eligible for Part D
                    coverage.

                    We included these 200 drugs in our review because they are highly
                    utilized by the dual eligible population under Medicaid, and therefore,
                    their inclusion or noninclusion by PDP formularies may have an impact
                    on the ease of the dual eligibles’ transition from Medicaid to Medicare
                    Part D. We did not assess the clinical value of any of these drugs or of



 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   6
I N T R O D        U C T              I O N


                    any therapeutically equivalent drugs that formularies may include
                    instead of the particular drugs on this list.

                    We included the formularies of all 409 PDPs to which dual eligibles
                    have been randomly assigned by CMS for autoenrollment. Many plans
                    use the same formulary; these 409 plans use a total of 37 unique
                    formularies. We excluded the formularies of MA plans. CMS did not
                    assign dual eligibles to an MA drug plan unless they were already
                    enrolled in that MA plan for their health care. Approximately
                    10 percent of dual eligibles were assigned to MA drug plans.
                    State Wraparound Coverage. We interviewed Medicaid representatives
                    from 47 (out of 51) States and SPAP representatives from 23 (out of 27)
                    States. We inquired about States’ provision of Medicaid coverage for the
                    22 excluded drugs in our review and asked about States’ plans to use
                    State-only funds to provide wraparound coverage to dual eligibles for
                    nonformulary drugs.

                    This information represents a snapshot at the time of our data
                    collection (November and December 2005) and is self-reported data
                    from State Medicaid and SPAP representatives. State coverage plans
                    are subject to change.
                    Methodology
                    Commonly Used Drugs. We used aggregated 2005 drug utilization data
                    from the Medicaid drug rebate program and 2003 dual eligible-specific
                    data from the Medicaid Statistical Information System to estimate
                    Medicaid prescriptions dispensed to dual eligibles in the first two
                    quarters of 2005. Based on this estimate, we identified 200 highly
                    utilized drugs. This list includes 22 drugs that are excluded by law
                    from Part D coverage and 178 drugs eligible for PDP coverage. For a
                    detailed explanation of how we identified the 200 highly utilized drugs,
                    see Appendix A.

                    We defined a drug by its active ingredient(s) regardless of specific
                    strengths, dosages, manufacturers, or package sizes. For example, a
                    multiple-source drug (i.e., a drug with generic equivalents) such as
                    fluoxetine HCl (the active ingredient for the multiple-source brand
                    name drug Prozac) has only one entry on our list, covering all strengths
                    of the brand name drug Prozac, as well as the generic versions of
                    fluoxetine HCl available. We also considered similar routes of
                    administration (e.g., tablets, pills, and other oral versions) to be the
                    same drug, while substantially different routes of administration (e.g.,
                    oral vs. injection) were treated as different drugs.

 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   7
I N T R O D        U C T              I O N


                    Because we had to rely on estimates to develop this list, we cannot state
                    with confidence that our list of 200 drugs precisely mirrors the actual
                    top 200 drugs used by dual eligibles. Additionally, because the list was
                    drawn from national aggregate data, it may not exactly reflect the top
                    200 drugs used by dual eligibles in a given State due to different patient
                    mix and different State policies meant to control utilization and costs.
                    However, these drugs account for approximately 78 percent of
                    prescriptions dispensed to dual eligibles, and therefore represent the
                    actual utilization of a significant number of dual eligibles. The
                    200 drugs reviewed are listed in Appendix B.
                    Formulary Inclusion. Our assessments of formulary inclusion considered
                    the 178 commonly used drugs that are eligible for PDP coverage. We
                    counted a drug as included if the formulary included the active
                    ingredient(s) in any strength, dosage, manufacturer (either brand name
                    or generic), or package size of the same general route of administration.
                    For consistency with CMS policy regarding minimum formulary
                    coverage requirements, we also considered a drug to be included if
                    either the standard form or the extended release version of the same
                    active ingredient(s) was included in the formulary. Our determination
                    of formulary inclusion was based solely on whether each drug was
                    included in the formulary. We did not consider tier level, prior
                    authorization, or step therapy requirements.
                    State Wraparound Coverage. For the 22 drugs in categories excluded from
                    PDP coverage, we used information from our State interviews to
                    determine how many States currently provide coverage for these drug
                    categories under Medicaid and whether this coverage will change in any
                    State Medicaid programs. We also determined how many States plan to
                    offer State-funded wraparound coverage for any nonexcluded drugs that a
                    dual eligible’s PDP formulary does not include.
                    Standards. This study was conducted in accordance with “Quality
                    Standards for Inspections” issued by the President’s Council on Integrity
                    and Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   8
Δ        F I N D I N G S 




   Prescription drug plan formularies include           Of 200 drugs with high utilization
between 76 and 100 percent of the commonly              by the dual eligible population,
                                                        178 drugs are eligible for coverage
                     used drugs we reviewed
                                                        by PDPs and the other 22 drugs fall
                    into categories excluded by law from Part D coverage. Dual eligibles are
                    assigned to 409 PDPs that use a total of 37 unique formularies.
                    Because these PDP formularies vary in the number of commonly used
                    drugs they include, random assignment to PDPs may affect prescription
                    drug coverage. Formulary inclusion of the 178 commonly used drugs
                    ranges from a low of 135 drugs (76 percent) to a high of 178 drugs
                    (100 percent).

                    Nineteen percent of formularies include all 178 of the Part D eligible
                    drugs we reviewed; an equal proportion include 151 or fewer (less than
                    85 percent). By formulary, the average rate of inclusion is 92 percent of
                    these commonly used drugs.

                    To meet minimum coverage requirements, all formularies must include
                    therapeutic alternatives (i.e., drugs that treat the same medical
                    condition) for drugs that are not included on the formulary.
                    Additionally, CMS staff reported that they had ensured in their
                    formulary review that formularies include at least one of each key drug
                    type, unless the plan presented reasonable clinical justification for not
                    including a key drug type. Dual eligibles who are taking a drug that is
                    not included on their PDP formulary should therefore have coverage for
                    a different drug that treats their condition. However, a dual eligible in
                    this situation will need to obtain a new prescription from his or her
                    doctor before the alternative drug can be dispensed.
                    Eighteen percent of dual eligibles were assigned to plans that include of all
                    of the 178 commonly used drugs we reviewed
                    As of November 2005, almost one-fifth of dual eligibles (18 percent)
                    nationally have been assigned to PDPs that use formularies that
                    include all 178 drugs in our review. If these dual eligibles took no
                    action, they were automatically enrolled in these plans on January 1,
                    2006, and maintained formulary inclusion of all of these 178 commonly
                    used drugs. While we reviewed 178 of the most common drugs, any
                    individual dual eligible may be taking drugs not included in our review
                    that may or may not be included on these formularies.

                    Almost one-third of dual eligibles (30 percent) were assigned to plans
                    that include less than 85 percent (151 or fewer) of the 178 commonly

  OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   9
F   I N D I N G                S


                             used drugs. If these dual eligibles took no action to switch plans, they
                             were automatically enrolled in plans with a formulary that omits 15
                             percent or more of these common drugs. An individual dual eligible
                             assigned to one of these plans may not take any of the omitted drugs,
                             and lack of formulary inclusion of these drugs may not affect that
                             individual. However, because our review included drugs with high
                             utilization by this population, it is likely that at least some dual
                             eligibles assigned to these plans use drugs that are omitted from the
                             formulary. If dual eligibles were assigned to a plan that does not
                             include a drug they take, they may obtain a new prescription for an
                             alternative drug that is included, apply for a formulary exception if the
                             nonformulary drug is the only drug that meets their needs, or switch to
                             a plan that includes their drug.

                             Table 1 breaks out dual eligibles’ autoassignment by formulary
                             inclusion nationally. Appendix C provides this breakout by PDP region.


            TABLE 1: Random Assignment of Dual Eligibles and Formulary Inclusion of
                     Commonly Used Drugs

           Random Assignment to Plans That
                                                                                  Number of Dual Eligibles*                                 Percentage of Dual Eligibles
           Include:

           100% of Common Drugs Reviewed
                                                                                                         979,000                                             18%
           (178 Drugs)

           85% to 99% of Common Drugs Reviewed
                                                                                                     2,892,000                                               52%
           (152 to 177 drugs)

           Less than 85% of Common Drugs Reviewed
                                                                                                     1,628,000                                               30%
           (151 or fewer drugs)

           Totals                                                                                    5,499,000                                              100%

         * Rounded to the nearest 1,000. 

         Source: Office of Inspector General (OIG) Analysis of Formulary Inclusion of Drugs Commonly Used by Dual Eligibles, 2005.




                             Every PDP region has at least one plan using a formulary that includes
                             all 178 commonly used drugs. This means that all dual eligibles have
                             the opportunity to switch to a plan including all of these 178 drugs. To
                             change PDPs, dual eligibles need to identify which PDP formulary best
                             meets their needs and take action to enroll in that plan.




    OEI-05-06-00090          D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   10
F   I N D I N G         S


                      Four States planned to offer wraparound coverage for at least some drugs
                      omitted from plan formularies
                      At the time of our interviews (November to December 2005), 4 of the
                      47 States planned to use State-only Medicaid funds to provide
                      wraparound coverage to dual eligibles for drugs that are eligible for
                      PDP coverage but are omitted from a plan’s formulary. Two of these
                      States, Connecticut and New York, planned to cover any drugs that are
                      not included on a PDP’s formulary and that the State covers for its
                      nondual eligible Medicaid population. The other two States, New
                      Jersey and Vermont, planned to cover a limited group of nonformulary
                      drugs. All four States planned to require dual eligibles to exhaust the
                      exceptions and appeals process with their PDP before the State will
                      provide Medicaid coverage.

                      Since the transition of dual eligibles on January 1, 2006, several
                      additional States have announced plans to offer temporary safety net
                      coverage to dual eligibles in response to problems with the transition.
                      States’ supplemental coverage may apply in a variety of circumstances
                      in which dual eligibles are having difficulty obtaining drugs under
                      Part D, including but not limited to formulary issues. For example,
                      Maine reinstituted State-funded drug coverage for its dual eligible
                      population on January 3, 2006. 23 In California, the State passed
                      emergency legislation to guarantee medication coverage for dual
                      eligibles who have been unable to get their prescriptions filled under the
                      new Medicare drug benefit. The bill provides up to $150 million for
                      1 month to pay for medications for dual eligibles.24 Numerous other
                      States have reported similar actions.25



Approximately half of the 178 commonly used                  Most of the 178 commonly used
     drugs we reviewed were included by all                  drugs are included by a large
                                 formularies                 percentage of formularies and, in
                                                             fact, half of these drugs
                      (51 percent) are included by all 37 formularies. Therefore, dual eligibles
                      will be assured formulary inclusion of many of the highly utilized drugs
                      regardless of the plan to which they were assigned. An additional 27 of
                      these highly utilized drugs (15 percent) are included by all but 1 or 2
                      formularies.

                      By drug, formulary inclusion ranges from 43 percent (i.e., included by
                      16 formularies) to 100 percent (37 formularies). However, because most
                      of the drugs are included by the vast majority of formularies, the

    OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   11
F   I N D I N G         S


                      average rate of inclusion is relatively high at 34 out of 37 formularies
                      (92 percent). Table 2 provides a summary of formulary inclusion by
                      drug, and Appendix B provides the number and percentage of
                      formularies that include each of the 178 drugs.


                         TABLE 2: Formulary Inclusion by Drug

                         Drugs Included by…                                                                                        Percentage of 178 Drugs


                         100% of the 37 Formularies
                                                                                                                                                 51% (91 drugs)
                         (37 formularies)

                         85% to 99% of the 37 Formularies
                                                                                                                                                 29% (52 drugs)
                         (32 to 36 formularies)

                         75% to 84% of the 37 Formularies
                                                                                                                                                  8% (14 drugs)
                         (28 to 31 formularies)

                         43% to 75% of the 37 Formularies
                                                                                                                                                 12% (21 drugs)
                         (27 or fewer formularies)

                         Total                                                                                                              100% (178 drugs)

                      Source: OIG Analysis of Formulary Inclusion of Drugs Commonly Used by Dual Eligibles, 2005.




                      Among formularies that do not include all 178 drugs, certain drugs are
                      omitted more frequently than others
                      Of the 178 common drugs we reviewed, 21 drugs (12 percent) were
                      omitted from at least one-fourth of the formularies. Table 3 lists these
                      21 drugs and the percentage of formularies covering each. All are single
                      source drugs, i.e., brand name drugs with no generic equivalents. Six of
                      these twenty-one drugs are used to treat high blood pressure. Three of
                      these drugs are used to lower cholesterol and three are used for pain
                      relief.

                      Minimum formulary coverage guidelines and CMS review should ensure
                      that all formularies include a therapeutic alternative for any of these
                      omitted drugs. If a dual eligible takes a specific drug that is omitted
                      from his or her PDP formulary, obtaining an alternative drug requires
                      the dual eligible to get a new prescription from his or her doctor. Dual
                      eligibles may also apply for a formulary exception to obtain coverage for
                      a nonformulary drug (by submitting a written statement of medical
                      necessity from their physician). Finally, dual eligibles may switch to a
                      PDP that includes their drug (with new coverage effective the following


    OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   12
F   I N D I N G           S



                           month). In the meantime, CMS has urged PDPs to cover a one-time
                           transition supply of the nonformulary drug.26


                      TABLE 3: Drugs Omitted From at Least 25 Percent of Formularies
                                                                                                                                                                 Percentage of
                                                                                                                                                                  Formularies
                                                                                                              27
                  Drug Brand Name (Generic Name)                            Primary Indication(s)                                                                  Omitting

                  Mobic (Meloxicam)                                         Osteoarthritis (pain relief, anti-inflammatory)                                               57%
                                                                            Ulcers, gastroesophageal reflux disease, and
                  Aciphex (Rabeprazole sodium)                              Zollinger-Ellison syndrome                                                                    51%
                                                                            Postherpetic neuralgia (relief of pain following
                  Lidoderm (Lidocaine patch)                                shingles infection)                                                                           46%
                  Ultracet
                  (Tramadol HCl/acetaminophen)                              Pain relief                                                                                   43%

                  Lescol (Fluvastatin sodium)                               Hyperlipidemia (high cholesterol)                                                             43%

                                                                28
                  Lexapro (Escitalopram oxalate)                            Depression, generalized anxiety disorder                                                      41%

                  Clarinex (Desloratadine)                                  Antihistamine (hay fever, hives)                                                              41%

                  Pravachol (Pravastatin sodium)                            Hyperlipidemia (high cholesterol)                                                             41%

                  Cozaar (Losartan potassium)                               Hypertension (high blood pressure)                                                            38%
                  Hyzaar
                  (Losartan potassium/HCTZ)                                 Hypertension (high blood pressure)                                                            38%

                  Crestor (Rosuvastatin)                                    Hyperlipidemia (high cholesterol)                                                             38%

                  Avalide (Irbesartan/HCTZ)                                 Hypertension (high blood pressure)                                                            38%

                  Avapro (Irbesartan)                                       Hypertension (high blood pressure)                                                            35%

                  Benicar (Olmesartan medoxomil)                            Hypertension (high blood pressure)                                                            35%

                  Razadyne (Galantamine HBr)                                Alzheimer’s disease                                                                           32%

                  Travatan (Travoprost eye drop)                            Glaucoma, ocular hypertension                                                                 32%
                  Nexium
                  (Esomeprazole magnesium)                                  Gastroesophageal reflux disease                                                               30%

                  Levaquin (Levofloxacin)                                   Antibiotic                                                                                    27%

                  Catapres patch (Clonidine HCl)                            Hypertension (high blood pressure)                                                            27%

                  Zyrtec (Cetirizine HCl)                                   Antihistamine (hay fever, allergies, hives)                                                   27%
                                                                            Antiplatelet (to prevent excessive clotting and
                  Aggrenox                                                  reduce the risk of stroke)                                                                    27%

                 Source: OIG Analysis of Formulary Inclusion of Drugs Commonly Used by Dual Eligibles, 2005.




    OEI-05-06-00090        D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S         13
F   I N D I N G         S 





Dual eligibles’ access under Medicaid will not                Of the 200 commonly used drugs
change in 45 of 47 States for the 22 drugs we                 we reviewed, 178 are eligible for
                                                              Part D coverage and
  reviewed that are statutorily excluded from
                                                              22 (11 percent) fall into categories
                    Medicare Part D coverage
                                                              that are statutorily excluded from
                      Part D coverage. Under Medicaid, States have the option to cover or
                      exclude these categories of drugs. If States opt to cover these drugs for
                      their nondual eligible population, they must also cover them for dual
                      eligibles. States will continue to receive Federal matching funds to
                      provide coverage of drugs in these excluded categories to dual eligibles.
                      These 22 high utilization drugs fall into 5 excluded drug categories:
                      o       Nonprescription (i.e., over the counter) drugs (12 drugs),

                      o       Benzodiazepines (5 drugs),

                      o       Prescription vitamin and mineral products (3 drugs),29

                      o       Barbiturates (1 drug), and

                      o       Drugs used for symptomatic relief of cough and colds (1 drug).

                      All 47 States that we interviewed provided coverage for at least some
                      excluded drugs in 2005. Coverage ranged by category. All 47 States
                      covered benzodiazepines in 2005, but only 33 of these States covered
                      drugs used for symptomatic relief of cough and colds.30
                      In 45 of these 47 States, dual eligibles continue to have access to the
                      same drugs covered by their Medicaid program in 2005. One State
                      (Tennessee) planned to end Medicaid coverage of benzodiazepines and
                      barbiturates, accounting for 6 of the 200 highly utilized drugs in our
                      review, for all beneficiaries (including dual eligibles). Another State
                      (North Dakota) planned to discontinue Medicaid coverage of drugs used
                      for symptomatic relief of cough and colds (1 of the 200 drugs reviewed).
                      No States we interviewed planned to expand their current coverage of
                      excluded drugs. Appendix D summarizes State coverage by category for
                      these 22 excluded drugs.




    OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   14
Δ   C O N C L U S I O N                                              


                  Our assessment of drug coverage for dual eligibles under Medicare
                  Part D included two components: determination of PDP formulary
                  inclusion of commonly used drugs and review of State wraparound
                  coverage policies. We did not assess or compare the overall benefits
                  provided to dual eligibles under Medicaid versus Medicare. Rather, our
                  review focused on differences between the drugs that the dual eligible
                  population used under Medicaid and the drugs included in PDP
                  formularies, as these differences may affect the ease of dual eligibles’
                  transition from Medicaid to Medicare.

                  We reviewed 200 drugs commonly used by the dual eligible population
                  in aggregate. We did not assess individual dual eligibles’ prescription
                  drug use or whether individual dual eligibles are assigned to
                  formularies that include the specific drugs they use. Of the
                  200 commonly used drugs, 22 drugs fall into categories excluded by law
                  from PDP coverage and 178 drugs are eligible for PDP coverage.

                  We determined whether these 178 Part D eligible drugs were included
                  on each PDP formulary and found that formulary inclusion varies.
                  Some plans use formularies that include all 178 of these highly utilized
                  drugs; other plans use formularies that include as few as
                  135 (76 percent) of these drugs.

                  Because PDP formularies vary, random assignment to PDPs may affect
                  the number of dual eligibles who take a specific drug that is not
                  included on their PDP’s formulary. Dual eligibles have several options
                  to ensure appropriate drug coverage if this occurs. They may apply for
                  an exception for the nonformulary drug. They may get a new
                  prescription from their doctor for a different drug that treats their
                  condition. They may also choose to switch plans on a monthly basis.
                  Because each PDP region has at least one plan that includes all 178
                  commonly used drugs we reviewed, every dual eligible has the
                  opportunity to enroll in a plan covering all of these drugs. Finally, CMS
                  has urged plans to provide a one-time supply of the nonformulary drug
                  to aid in this transition.

                  However, navigating these options requires a dual eligible to have a
                  certain level of understanding of the Medicare Part D benefit and take
                  specific action. At a basic level, the dual eligible must be aware that
                  formularies vary by plan and that CMS and State agencies have created
                  options to ease the transition. Next, the dual eligible must make
                  proactive efforts to ensure his or her drug needs are met as outlined
                  above. These actions may present a minor administrative obstacle to

OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   15
C O   N C L        U S I O             N


                     some and a major barrier to others given the fact that dual eligibles face
                     greater health and resource challenges than other Medicare
                     beneficiaries.31 Thirty-eight percent of dual eligibles have cognitive or
                     mental impairments. Over a third are disabled. On average, dual
                     eligibles use at least ten more prescription drugs than nondual eligible
                     beneficiaries.

                     Given the variation we found in PDP formularies’ inclusion of
                     178 commonly used drugs, as well as the medical and resource
                     challenges faced by this population, dual eligibles may need targeted
                     assistance to navigate the transition from Medicaid to Medicare
                     coverage. CMS has undertaken efforts to educate and assist dual
                     eligibles and to incorporate safeguards into the program to ensure
                     access to needed drugs. Some State Medicaid agencies have also taken
                     the initiative to educate dual eligibles and a few are directly assisting
                     dual eligibles to identify which PDP formulary offers optimal coverage
                     for their needs to make the transition as seamless as possible.
                     However, reported experiences of some dual eligibles highlight the need
                     for further targeted assistance to this population to ease this
                     transition.32
                     OIG will continue to study issues associated with dual eligibles as they
                     make the transition from Medicaid to Medicare Part D.


                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                     RESPONSE
                     CMS provided comments on the draft report in which it highlighted its
                     concerns with this report. These concerns fall into two general
                     categories: methodology and scope. CMS’s comments are included in
                     Appendix E. CMS also provided technical comments, which we
                     incorporated into the report where appropriate.
                     Methodology Concerns and Response
                     CMS contended that this study has significant methodological flaws,
                     primarily because we used a national list of 178 drugs commonly used
                     by the dual eligible population. CMS favors a methodology that
                     analyzes drug histories and formulary assignment for individual
                     beneficiaries.

                     We disagree that our study has significant flaws. We are confident that
                     our analysis provides an appropriate measure of potential
                     vulnerabilities that dual eligibles face while making the transition from


 OEI-05-06-00090     D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   16
C O   N C L        U S I O             N


                     Medicaid to Medicare. Our national list of drugs represents the top
                     drugs that the dual eligible population actually used under Medicaid,
                     accounting for approximately 78 percent of all Medicaid prescriptions
                     dispensed to dual eligibles. For the Part D eligible drugs in our review,
                     we determined whether each drug was included on each formulary of
                     the PDPs in which dual eligibles were automatically enrolled.
                     Differences between the list of drugs that dual eligibles commonly use
                     and the drugs on PDP formularies signal potential challenges for dual
                     eligibles during the transition.

                     While we used one methodological approach, CMS advocated another
                     approach that measures formulary coverage at the beneficiary level.
                     CMS provided its own analysis comparing individuals’ drug histories to
                     PDP formularies for a sample of dual eligibles. This analysis is included
                     in Appendix E.

                     In fact, CMS’s results were remarkably similar to ours and we believe
                     further support our conclusions. In our study, we found that, on
                     average, PDP formularies include 92 percent of the 178 Part D eligible
                     drugs we reviewed. In its analysis, CMS found that, on average, PDP
                     formularies include 92.8 percent of the prescriptions of the individual
                     dual eligibles it sampled. Our report concluded that, given the variation
                     in PDP formularies, random assignment to PDPs may affect the number
                     of dual eligibles who take specific drugs that are not included on their
                     PDP formulary. CMS’s analysis found that 31.8 percent of the dual
                     eligibles in its sample took at least one drug that is not covered by their
                     randomly assigned PDP formulary. The fact that CMS and OIG
                     conducted independent analyses, using different methodologies, and
                     found very similar results further strengthens our confidence in our
                     findings and conclusions.
                     Scope Concerns and Response
                     CMS’s other concerns generally relate to the scope of our review and,
                     specifically, to issues we do not address in this study. Our review
                     determined the extent to which PDP formularies include drugs
                     commonly used by dual eligibles under Medicaid, as differences in
                     coverage may present challenges during dual eligibles’ transition to
                     Part D. We did not assess or compare the overall benefits provided to
                     dual eligibles under Medicaid versus Medicare. While CMS’s concerns
                     about Medicaid drug restrictions and whether beneficiaries have better
                     coverage under Part D are important issues, they are outside the scope



 OEI-05-06-00090     D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   17
C O   N C L        U S I O             N


                     of this review, which focused on assessing challenges during the
                     transition.

                     Consistent with our goal to assess dual eligibles’ transition to the
                     Part D benefit, we assessed only whether PDP formularies include the
                     specific highly utilized drugs in our review. We did not assess the
                     clinical quality of PDP formularies, the clinical value of the drugs in our
                     review, or their therapeutic alternatives. For the purposes of this study,
                     we presumed that CMS ensures that PDP formularies meet minimum
                     statutory requirements and provide adequate coverage from a clinical
                     perspective.
                     However, as CMS explains in its comments, a formulary can meet
                     minimum coverage requirements without covering all drugs. CMS
                     provided the example of Crestor and Lipitor (two drugs used to lower
                     cholesterol) and explained that the plans would generally choose to
                     include only one of these two drugs on their formularies for cost
                     containment purposes.

                     While we make no assessment of the relative clinical values of Crestor
                     and Lipitor, we point out that a dual eligible who is taking Crestor may
                     be autoenrolled in a plan that covers only Lipitor and vice versa. In this
                     situation, the dual eligible must take action to maintain access to any
                     drug to treat his or her condition. The dual eligible must contact a
                     physician to switch the prescription to the formulary drug, apply for an
                     exception to continue taking the nonformulary drug, or switch to a plan
                     that covers the specific drug. Dual eligibles may need assistance
                     navigating these options. Ideally, CMS and other stakeholders could
                     assist dual eligibles to understand their PDP formularies and encourage
                     them to take proactive steps (e.g., contacting their physician to change
                     prescriptions), if needed, before the beneficiary arrives at the pharmacy
                     counter.

                     We hope that the information in this report, in conjunction with CMS’s
                     own analysis, helps CMS and other stakeholders to assist dual eligibles
                     who may be experiencing challenges in the transition to their Part D
                     formularies. OIG will also continue to study issues associated with dual
                     eligibles as they make the transition from Medicaid to Medicare Part D.




 OEI-05-06-00090     D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   18
Δ   E N D N O T E S                                   





                      1   Public Law 108-173.

                     In addition to these two primary options, there can be beneficiaries
                      2

                  who enrolled in PDPs who receive their benefits through cost plans or
                  private fee-for-service plans, as well as other beneficiaries who receive
                  Part D through PACE organizations.

                      CMS. “MA & PDP Regions: State by State Summary Table.”
                      3

                  Available online at
                  http://www.cms.hhs.gov/medicarereform/mmaregions/pdpmaosum.asp, accessed
                  October 20, 2005.

                     Federal financial participation is available for Medicaid coverage of
                      4

                  any of the Medicaid “excludable” drugs, which are excluded by law from
                  Medicare Part D coverage.

                     Section 1935(c) of the Social Security Act, as amended by Public Law
                      5

                  108-173.

                      GAO. “Contingency Plans to Address Potential Problems With the
                      6

                  Transition of Dual-Eligible Beneficiaries From Medicaid to Medicare
                  Drug Coverage.” 2005. Available online at
                  http://www.gao.gov/new.items/d06278r.pdf, accessed December 29, 2005.

                   Elliot, Rachel, et al. “Benefits and Consequences for the Poor and the
                  Disabled.” New England Journal of Medicine. 353:26, pp. 2793-2741.
                  December 29, 2005.

                     Kaiser Commission on Medicaid and the Uninsured. “Resources on
                  Dual Eligibles and Issues Related to Their Transition to the New
                  Medicare Drug Benefit.” Available online at
                  http://www.kff.org/medicaid/dualsrx.cfm, accessed December 29, 2005.

                    Nemore, Patricia. “Medicare Part D: Issues for Dual Eligibles on the
                  Eve of Implementation.” Kaiser Family Foundation. November 2005.
                  Available online at https://www.kff.org/medicare/upload/Medicare-Part-D-Issues
                  for-Dual-Eligibles-on-the-Eve-of-Implementation-Issue-Brief.pdf, accessed
                  December 29, 2005.




OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   19
                     Section 1860D-1(b)(1)(C) of the Social Security Act, as amended by
                      7

                  Public Law 108-173.

                     42 CFR § 423.38(c)(4) and 423.40(c). Nondual eligibles may only
                      8

                  change their plan selections during the open enrollment period, unless
                  they meet specific criteria for a Special Election Period. For 2006, the
                  open enrollment period began on November 15, 2005, and continues
                  through May 15, 2006. In future years, the open enrollment period will
                  begin on November 15 and end on December 31.

                      National Pharmaceutical Council. “Pharmaceutical Benefits Under
                      9

                  Medicaid 2004.” 2005. Available online at
                  http://www.npcnow.org/resources/PharmBenefitsMedicaid.asp, accessed
                  December 30, 2005.

                       Section 1860D-4(b)(3)(C)(ii) of the Social Security Act, as amended by
                      10

                  Public Law 108-73, required that CMS request the U.S. Pharmacopeia
                  (USP) to develop model guidelines that PDP sponsors could use to
                  develop their formularies. The USP guidelines include 41 therapeutic
                  categories. Of these, 32 categories also have associated pharmacologic
                  classes (total of 137 classes). For example, the USP guidelines include
                  the therapeutic category of “Blood Glucose Regulators” and three
                  pharmacologic classes (“Antihypoglycemics;” “Hypoglycemics, Oral;” and
                  “Insulins”) associated with that category. USP, “Medicare Prescription
                  Drug Benefit Model Guidelines,” December 31, 2004. Available online at
                  http://www.usp.org/pdf/EN/mmg/finalModelGuidelines2004-12-31.pdf, accessed
                  October 27, 2005.

                      CMS, “A Strategy for Transitioning Dual Eligibles from Medicaid to
                      11

                  Medicare Prescription Drug Coverage,” May 2, 2005, page 5. Available
                  online at http://www.cms.hhs.gov/medicarereform/strategyforduals.pdf, accessed
                  October 21, 2005.

                       “Substantially all” means that all drugs in these categories are
                      12

                  expected to be included in plan formularies with a few specified
                  exceptions. CMS Special Guidance Materials, “Clarification: Formulary
                  Review,” updated June 16, 2005. Available online at
                  http://www.cms.hhs.gov/pdps/formularyqafinalmmrevised.pdf, accessed
                  October 19, 2005.




OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   20
                     Section 1860D-4(b)(3)(E) of the Social Security Act, as amended by
                      13

                  Public Law 108-173.

                      14USP created “key drug types” to aid CMS review of formularies for
                  overall adequacy of coverage. Key drug types are more specific than
                  categories or classes. For the review of PDP formularies for 2006, USP’s
                  list identified 118 key drug types. For 2007, USP’s proposed list has
                  expanded to include 170 key drug types. USP, “Preamble to the Proposed
                  Revisions to the USP Model Guidelines.” Available online at
                  http://www.usp.org/healthcareInfo/mmg/phase2/preamble.html, accessed
                  December 19, 2005; USP, Draft Drug Listing, available online at
                  http://www.usp.org/pdf/EN/mmg/draftDrugListingV2.0-2005-12-09.pdf, accessed
                  December 19, 2005.

                      CMS. “Fact Sheet: Ensuring an Effective Transition of Dual
                      15

                  Eligibles from Medicaid to Medicare Part D.” December 1, 2005.

                       CMS, Prescription Drug Benefit Manual, Chapter 18: “Enrollee
                      16

                  Grievance, Coverage Determinations, and Appeals.” Available online at
                  http://www.cms.hhs.gov/pdps/part_d_manualappeals20051130.pdf, accessed
                  December 2, 2005.

                      CMS, “Fact Sheet: Ensuring an Effective Transition of Dual
                      17

                  Eligibles from Medicaid to Medicare Part D.” December 1, 2005.

                     CMS, “Information for Part D Sponsors on Requirements for a
                      18

                  Transition Process,” March 16, 2005. Available online at
                  www.cms.hhs.gov/pdps/specguidncmaterials.asp, accessed December 2, 2005.

                      19   42 U.S.C. § 1396r-8(d)(2).

                      Public Law 109-91 § 104(a) added the category of drugs used for
                      20

                  sexual or erectile dysfunction, applicable to drugs dispensed on or after
                  January 1, 2007.

                      The 21 States that received grants are CT, DE, IL, IN, KS, MA, MD,
                      21

                  ME, MI, MN, MO, NC, NJ, NV, NY, PA, RI, TX, VT, WI, and WY. CMS,
                  “State Pharmaceutical Assistance Program Transitional Grant




OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   21
                  Distribution Awards,” October 2004. Available online at
                  http://www.cms.hhs.gov/medicarereform/spap_state_awards.pdf, accessed
                  November 17, 2005.

                     “Qualified” SPAPs are eligible for certain benefits in coordinating
                  coverage with Medicare Part D. These 25 States are AK, CA, CT, DE,
                  FL, IL, IN, MA, MD, ME, MI, MO, MN, MT, NC, NJ, NV, NY, RI, SC, TX,
                  VT, WA, WI, and WY. CMS, “Qualified SPAP List,” November 8, 2005.
                  Available online at
                  http://www.cms.hhs.gov/medicarereform/states/qual_spap_list.pdf, accessed
                  November 17, 2005.

                      CMS, “Fact Sheet: Ensuring an Effective Transition of Dual
                      22

                  Eligibles from Medicaid to Medicare Part D.” December 1, 2005.

                     BNA. “Dual Eligibles: Low Income Seniors Denied Benefits in
                      23

                  Transition to Medicare Part D, Groups Say.” January 13, 2005.

                      San Francisco Chronicle. “Move to Cover Drug Benefits: Legislature
                      24

                  Steps in on Prescriptions for Medicare Patients.” January 20, 2006.

                       Kaisernetwork. “Kaiser Daily Health Policy Report Highlights News
                      25

                  of State Actions Related to Launch of Medicare Drug Benefit,” January
                  11, 2006; and “More States Take Emergency Measures To Provide Rx
                  Drugs to Medicare Beneficiaries,” January 13, 2006. Available online at
                  http://www.kaisernetwork.org/daily_reports/rep_index.cfm?hint=3&DR_ID=34786,
                  accessed January 20, 2005.

                      CMS, Memorandums to Medicare Part D Sponsors, issued January
                      26

                  13 and January 18, 2006.

                      Information on indications from MedlinePlus, a service of the U.S.
                      27

                  National Library of Medicine and the National Institutes of Health.
                  Available online at http://www.nlm.nih.gov/medlineplus/druginformation.html,
                  accessed November 30, 2005.

                       Although Lexapro (escitalopram oxalate) is in one of CMS’s protected
                      28

                  categories, i.e., antidepressants, it falls under one of the “substantially
                  all” exceptions. This exception is that formularies must cover either




OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   22
                  escitalopram oxalate or citalopram. Therefore, those formularies that
                  omit escitalopram oxylate must cover citalopram.

                      Prenatal vitamins and fluoride preparations are exceptions to this
                      29

                  exclusion.

                       These States may restrict their coverage within these categories
                      30

                  (e.g., requiring prior authorization, only covering certain drugs in a
                  category), but all States provide at least some coverage of drugs in the
                  category.

                       GAO. “Contingency Plans to Address Potential Problems with the
                      31

                  Transition of Dual-Eligible Beneficiaries from Medicaid to Medicare Drug
                  Coverage.” 2005. Available online at
                  http://www.gao.gov/new.items/d06278r.pdf, accessed December 29, 2005.

                   Elliot, Rachel, et al. “Benefits and Consequences for the Poor and the
                  Disabled.” New England Journal of Medicine. 353:26, pp. 2793-2741.
                  December 29, 2005.

                     Kaiser Commission on Medicaid and the Uninsured. “Resources on
                  Dual Eligibles and Issues Related to Their Transition to the New
                  Medicare Drug Benefit.” Available online at
                  http://www.kff.org/medicaid/dualsrx.cfm, accessed December 29, 2005.

                    Nemore, Patricia. “Medicare Part D: Issues for Dual Eligibles on the
                  Eve of Implementation.” Kaiser Family Foundation. November 2005.
                  Available online at https://www.kff.org/medicare/upload/Medicare-Part-D-Issues
                  for-Dual-Eligibles-on-the-Eve-of-Implementation-Issue-Brief.pdf, accessed
                  December 29, 2005.

                       CBS News. “Medicare Reality Check.” Available online at
                      32

                  http://www.cbsnews.com/stories/2006/01/06/eveningnews/main1185180.shtml,
                  accessed January 13, 2006.

                   Detroit Free Press. “Seniors’ Drugs Held Up in Drug Plan Switch.”
                  Available online at www.freep.com, accessed January 10, 2005.




OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   23
                    USA Today. “Medicare Drug Benefit Costly for Some Poor.” Available
                  online at http://www.usatoday.com/news/health/2006-01-12-medicare-poor_x.htm,
                  accessed January 13, 2006.

                     USA Today. “Seniors Denied Rx Drug Benefits.” Available online at
                  http://www.usatoday.com/news/health/2006-01-12-seniors-medicare_x.htm,
                  accessed January 13, 2006.




OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   24
A   P   P E N D       I X             ~           A
Δ       A P P E N D I X                                 ~            A             



                      DETAILED SCOPE AND METHODOLOGY
                      Scope of Inspection
                      Our assessment of drug coverage for dual eligibles under Medicare
                      Part D included two components. Primarily, we determined whether
                      PDP formularies include (nonexcluded) drugs that were highly utilized
                      by dual eligibles under Medicaid. Secondarily, we identified how many
                      States plan to offer wraparound drug coverage for excluded drugs
                      and/or nonformulary drugs for dual eligibles.

                      Our study focused on the transition of dual eligibles from Medicaid to
                      Medicare Part D drug coverage. We assessed the extent to which PDP
                      formularies include the drugs that dual eligibles commonly used under
                      Medicaid, as differences in coverage may affect the ease of dual
                      eligibles’ transition to Medicare. We did not assess or compare the
                      overall benefits provided to dual eligibles under Medicaid versus
                      Medicare.

                      Our review included 200 of the most commonly used drugs based on the
                      number of prescriptions dispensed to dual eligibles under Medicaid
                      fee-for-service in the first two quarters of 2005. These drugs account for
                      approximately 78 percent of prescriptions to dual eligibles during this
                      period. Of these 200 drugs, 22 fall into categories excluded from
                      Medicare Part D coverage, and 178 are eligible for Part D coverage.

                      We included these 200 drugs in our review because they are highly
                      utilized by the dual eligible population under Medicaid and, therefore,
                      their inclusion or noninclusion by PDP formularies may have an impact
                      on the ease of the dual eligibles’ transition from Medicaid to Medicare
                      Part D. We did not assess the clinical value of any of these drugs or of
                      any therapeutically equivalent drugs that formularies may include
                      instead of particular drugs on this list.

                      We used aggregate drug utilization data to identify drugs commonly
                      used by the dual eligible population as a whole. We did not assess
                      individual dual eligibles’ prescription drug use or whether individual
                      dual eligibles are assigned to formularies that include the specific drugs
                      that each uses.

                      Our review included 200 of the most commonly used drugs based on
                      estimated utilization among dual eligibles under Medicaid
                      fee-for-service in the first two quarters of 2005. Of these 200 drugs, 22
                      are excluded from Medicare Part D coverage.


    OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   25
A   P   P E N D       I X             ~           A


                      Formulary Inclusion. Our determinations of formulary inclusion
                      considered the 178 nonexcluded drugs from our list of 200 drugs with
                      high dual eligible utilization.

                      We included the formularies of all PDPs to which dual eligibles have
                      been randomly assigned by CMS for autoenrollment, i.e., PDPs offering
                      standard benefits (or equivalent) with premiums at or below the
                      regional benchmark cost. In total, 409 PDPs (offered by 60 PDP
                      sponsors) met these criteria. Many plans use the same drug
                      formularies; these 409 plans use a total of 37 unique formularies.

                      We excluded the formularies of PDP plans with enhanced benefits
                      and/or with premiums above the regional benchmark because dual
                      eligibles will face additional cost-sharing requirements if they enroll in
                      such plans. We also excluded the formularies of MA plans. While dual
                      eligibles may opt to enroll in an MA plan, this decision affects their
                      entire health care delivery system by enrolling them in managed care,
                      and therefore includes many important considerations beyond drug
                      coverage. CMS did not assign dual eligibles to an MA drug plan unless
                      they were already enrolled in that MA plan for their health care.
                      Approximately 10 percent of dual eligibles were assigned to MA drug
                      plans.

                      Our analysis of PDP formularies assessed only whether they include
                      the specific drugs in our review. We did not assess the overall adequacy
                      of the PDP formularies or whether these formularies comply with
                      mandated minimum coverage requirements.
                      State Wraparound Coverage. Our inquiry into State wraparound
                      coverage considered two issues. The first was States’ provision of
                      Medicaid coverage (with Federal matching funds) for the 22 excluded
                      drugs on our list of 200 drugs commonly utilized by dual eligibles. The
                      second was States’ plans to use State-only funds to provide wraparound
                      coverage to dual eligibles for nonformulary drugs.

                      We contacted the Medicaid programs of all States and the District of
                      Columbia. Forty-six States responded. We inquired about current
                      Medicaid coverage of excludable drugs, as well as wraparound policies
                      States planned to have in place in January 2006 to cover excluded
                      drugs and/or nonformulary drugs. We also contacted the 27 States with
                      SPAPs that were either recognized as “qualified” SPAPs by CMS or
                      received transitional grants from CMS to inquire about wraparound
                      coverage for dual eligibles. Twenty-three States with SPAPs responded.


    OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   26
A   P   P E N D       I X             ~           A


                      This information represents a snapshot at the time of our data
                      collection (November and December 2005) and is self-reported data
                      from States; we did not independently verify States’ responses. We did
                      not assess sources outside of the State Medicaid programs or SPAPs
                      that could potentially offer dual eligibles access to excluded drugs or
                      nonformulary drugs.
                      Methodology
                      Data Sources for Formulary Comparisons
                      Data sources for the comparison of formularies to dual eligibles’
                      commonly used drugs included:
                      o Medicaid Drug Rebate (MDR) program drug utilization data from
                          the first two quarters of 2005,
                      o Medicaid Statistical Information System (MSIS) data from 2003
                          (the most recent year available),
                      o First Databank drug product data,

                      o Medispan drug product data,

                      o Redbook drug product data, and

                      o PDP formulary information.

                      Identifying 200 Drugs With High Utilization by Dual Eligibles
                      We identified 200 highly utilized drugs using the estimated number of
                      prescriptions dispensed to dual eligibles in the first two quarters of
                      2005. To do so, we used MSIS data to calculate the proportion of
                      prescriptions for each drug that was dispensed to dual eligibles in 2003.
                      We applied these proportions to MDR drug utilization data from 2005.
                      When MSIS data were not available for a specific drug, we applied the
                      average proportion of prescriptions written to dual eligibles for drugs in
                      the same therapeutic class in that State. Our list of 200 drugs highly
                      utilized by dual eligibles is based on the compilation of dual eligibles’
                      drug utilization in the 2003 MSIS data (32 States) and 2005 MDR
                      utilization data (43 States, January through June 2005). This list
                      includes 22 drugs that are excluded by law from Part D coverage that
                      most Medicaid programs had opted to cover in 2005.

                      Because we had to rely on estimates to develop this list, we cannot state
                      with confidence that our list of 200 drugs precisely mirrors the actual
                      top 200 drugs used by dual eligibles. Additionally, because this list was
                      developed from aggregate national data, it may not exactly reflect the
                      top 200 drugs used by dual eligibles in a given State. However, we

    OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   27
A   P   P E N D       I X             ~           A


                      conducted a preliminary comparison of the top National Drug Codes
                      (NDCs) by dual eligibles’ utilization nationally and the top NDCs by
                      dual eligibles’ utilization in 10 States of varying regions, population
                      densities, and Medicaid policies. We found only minimal differences
                      between the national and State lists of highly utilized drugs.

                      The 200 drugs on our list account for approximately 78 percent of
                      prescriptions dispensed to dual eligibles. Consequently, the inclusion or
                      noninclusion of these drugs on Part D formularies is likely to affect
                      significant numbers of dual eligibles. We are therefore confident that
                      our national list of 200 highly utilized drugs is a good proxy by which to
                      assess potential disruptions in dual eligibles’ prescription drug access
                      during the transition process. These 200 drugs are listed in
                      Appendix B.
                      Determining Formulary Inclusion
                      We defined each drug by its active ingredient(s) regardless of specific
                      strengths, dosages, manufacturers, or package sizes. For example, a
                      single source drug (i.e., a drug with no generic equivalents), such as
                      Lipitor, appears only once on our list of 200 drugs; we did not include
                      separate entries for Lipitor 10-mg strength and Lipitor 20-mg strength.
                      A multiple-source drug such as fluoxetine HCl (the active ingredient for
                      the multiple-source brand name drug Prozac) has only one entry on our
                      list, covering all strengths of the brand name drug Prozac, as well as the
                      generic versions of fluoxetine HCl available. We considered the
                      standard form and extended release version of the same active
                      ingredient(s) to be the same drug. We also considered similar routes of
                      administration (e.g., oral) to be the same drug, while substantially
                      different routes of administration were treated as different drugs. For
                      example, if the same active ingredient was available in caplets, tablets,
                      and oral liquids, we considered these versions to be the same drug.
                      However, the same active ingredient in a nonoral form, such as an
                      injection, would be considered a different drug.

                      A drug was considered to be included by the formulary if the active
                      ingredient was included in any strength, dosage, manufacturer, or
                      package size of the same general route of administration. When a drug
                      included multiple ingredients that could be dispensed separately and
                      combined by the patient to the same effect as the combined drug, then
                      the drug was treated as included when the ingredients were included in
                      the formulary either separately or in combination. For example, one
                      drug on our list is Vytorin (ezetimibe/simvastatin), a combination of


    OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   28
A   P   P E N D       I X             ~           A


                      Zetia (ezetimibe) and Zocor (simvastatin). If the formulary included
                      both Zetia and Zocor, then we considered Vytorin to be included.

                      Once we made formulary inclusion determinations for each of the
                      nonexcluded drugs, we analyzed these results. For each formulary, we
                      calculated the percentage of the 178 drugs (i.e., the 200 drugs minus the
                      22 drugs excluded by law from coverage) that are included in the plan
                      formulary. For each of the 178 nonexcluded drugs, we calculated the
                      percentage of formularies that include that drug.
                      Identifying State Medicaid and SPAP Wraparound Coverage
                      We called all State Medicaid directors and the directors of 26 of the
                      27 CMS-recognized and/or grantee SPAPs to identify whether these
                      programs are planning to offer wraparound coverage of excluded and/or
                      nonformulary drugs. Forty-six State Medicaid programs and 23 SPAPs
                      responded.

                      For the 22 drugs that fell into categories excluded from Medicare Part
                      D coverage, we used our information from State interviews to
                      determine how many States currently provide coverage for these drug
                      categories under Medicaid and whether this coverage will change in
                      any State Medicaid programs.

                      We also determined how many States will offer State-funded
                      wraparound coverage for any nonexcluded drugs that a dual eligible’s
                      PDP formulary does not include.




    OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   29
Δ   A P P E N D I X                                 ~            B             



                  THE 200 DRUGS INCLUDED IN OUR REVIEW
                  Our review included 200 of the most commonly used drugs based on the
                  number of prescriptions dispensed to dual eligibles under Medicaid
                  fee-for-service in the first two quarters of 2005. We included these
                  particular drugs in our review because they are highly utilized by the
                  dual eligible population under Medicaid and, therefore, their inclusion
                  or noninclusion by formularies may have an impact on the ease of the
                  dual eligibles’ transition from Medicaid to Medicare Part D. We did not
                  assess the clinical value of any of these drugs or of any therapeutically
                  alternative drugs that formularies may include instead of particular
                  drugs on this list. CMS has reviewed all PDP formularies to verify that
                  they meet minimum requirements and to ensure overall adequacy of
                  each formulary.

                  We used aggregated 2005 MDR drug utilization data and 2003 dual
                  eligible-specific data from the MSIS to estimate Medicaid prescriptions
                  dispensed to dual eligibles in the first two quarters of 2005. Based on
                  these estimates, we identified 200 highly utilized drugs. Because we
                  had to rely on estimates to develop this list, we cannot state with
                  confidence that our list of 200 drugs exactly mirrors the actual top
                  200 drugs used by dual eligibles. However, these drugs account for
                  approximately 78 percent of prescriptions to dual eligibles, and
                  therefore represent the actual utilization patterns of a significant
                  number of dual eligibles.




OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   30
 A   P   P E N D        I X               ~            B            





                  TABLE 4: 200 Commonly Utilized Drugs by Dual Eligibles
                                                                                                                                 Formulary                 Percentage
                  Rank                         Generic Name                                 Brand Name
                                                                                                                              Inclusion (of 37)             Included
                      1            Furosemide                                             Lasix                                        37                        100%
                      2            Atorvastatin                                           Lipitor                                      35                        95%
                      3            Potassium chloride oral                                Klotrix                                      37                        100%
                      4            Metoprolol                                             Lopressor                                    37                        100%
                      5            Lansoprazole SR                                        Prevacid                                     29                        78%
                      6            Amlodipine Besylate                                    Norvasc                                      35                        95%
                      7            Levothyroxine sodium                                   Levoxyl                                      37                        100 %
                      8            Lisinopril                                             Prinivil                                     37                        100%
                      9            Hydrocodone/APAP                                       Vicodin                                      36                        97%
                     10            Clopidogrel bisulfate                                  Plavix                                       37                        100%
                     11            Warfarin sodium                                        Coumadin                                     37                        100%
                     12            Atenolol                                               Tenormin                                     37                        100%
                     13            Olanzapine                                             Zyprexa                                      37                        100%
                     14            Risperidone                                            Risperdal                                    37                        100%
                     15            Hydrochlorothiazide                                    Microzide                                    37                        100%
                     16            Sertraline                                             Zoloft                                       37                        100%
                     17            Quetiapine                                             Seroquel                                     37                        100%
                     18            Simvastatin                                            Zocor                                        31                        84%
                     19            Aspirin                                                Bayer                                   Excluded
                     20            Lorazepam                                               Ativan                                 Excluded
                     21            Ranitidine                                             Zantac                                       37                        100%
                     22            Metformin HCL                                          Glucophage                                   37                        100%
                     23            Digoxin                                                Digitek                                      37                        100%
                     24            Divalproex sodium                                      Depakote                                     37                        100%
                     25            Donepezil                                              Aricept                                      37                        100%
                     26            Esomeprazole magnesium                                 Nexium                                       26                        70%
                     27            Zolpidem tartrate                                       Ambien                                      36                        97%
                     28            Escitalopram oxalate                                   Lexapro                                      22                        59%
                     29            Phenytoin sodium                                       Dilantin                                     37                        100%
                     30            Alendronate sodium                                     Fosamax                                      35                        95%
                     31            Alprazolam                                             Xanax                                   Excluded
                     32            Albuterol inhaler                                      Ventolin                                     37                        100%
                     33            Pantoprazole                                           Protonix                                     30                        81%
                     34            Celecoxib                                              Celebrex                                     33                        89%
                     35            Glipizide                                              Glucotrol                                    37                        100%
                     36            Isosorbide mononitrate                                 Ismo                                         37                        100%
                                   Propoxyphene Nap/
                     37                                                                   Darvocet                                     31                        84%
                                   Acetaminophen
                     38            Gabapentin                                             Neurontin                                    37                        100%
                     39            Trazodone                                               Desyrel                                     37                        100%
                     40            Clonazepam                                             Klonopin                                Excluded




OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S           31
A   P   P E N D        I X              ~           B             





             200 Commonly Utilized Drugs by Dual Eligibles, Continued
                                                                                                                                       Formulary                 Percentage
              Rank                          Generic Name                                            Brand Name
                                                                                                                                    Inclusion (of 37)             Included
                41    Valsartan                                                                     Diovan                                   34                        92%
                42    Risedronate sodium                                                            Actonel                                  36                        97%
                43    Rosiglitazone maleate                                                        Avandia                                   37                        100%
                44    Azithromycin oral                                                            Zithromax                                 36                        97%
                      Salmeterol xinafoate/ Fluticasone propionate
                45                                                                                  Advair Diskus                            36                        97%
                      xinafoate/Fluticasone propionate
                46    Pioglitazone                                                                  Actos                                    35                        95%
                47    Montelukast sodium                                                            Singulair                                37                        100%
                48    Paroxitine HCL                                                                Paxil                                    37                        100%
                49    Omeprazole SA                                                                 Prilosec                            Excluded
                50    Levofloxacin                                                                  Levaquin                                 27                        73%
                51    Tramadol                                                                      Ultram                                   35                        95%
                52    Carvedilol                                                                   Coreg                                     36                        97%
                53    Tolterodine tartrate                                                          Detrol                                   34                        92%
                54    Venlafaxine HCL                                                              Effexor                                   37                        100%
                55    Loratadine                                                                    Claritin                            Excluded
                56    Triamterene/HCTZ                                                              Dyazide                                  37                        100%
                57    Folic acid                                                                    Folic acid                          Excluded
                58    Docusate sodium                                                               Colace                              Excluded
                59    Clonidine HCL                                                                Catapres                                  37                        100%
                60    Insulin 70/30                                                                 Humulin                                  34                        92%
                61    Tamsulosin HCl                                                               Flomax                                    32                        86%
                62    Losartan potassium                                                           Cozaar                                    23                        62%
                63    Albuterol/Ipratropium                                                         Combivent                                35                        95%
                64    Fluoxetine HCL                                                                Prozac                                   37                        100%
                65    Amlodipine/Benazepril                                                        Lotrel                                    31                        84%
                66    Prednisone                                                                    Deltasone                                37                        100%
                67    Pravastatin sodium                                                            Pravachol                                22                        59%
                68    Glyburide                                                                     Micronase                                37                        100%
                69    Nifedipine                                                                    Adalat                                   37                        100%
                70    Latanoprost                                                                   Xalatan                                  32                        86%
                71    Clozapine                                                                     Clozaril                                 37                        100%
                72    Famotidine                                                                    Pepcid                                   36                        97%
                73    Fluticasone propionate nasal spray                                            Flonase                                  34                        92%
                74    Metoclopramide                                                               Reglan                                    37                        100%
                75    Diltiazem                                                                    Cartia XT                                 37                        100%
                76    Valsartan/HCT                                                                 Diovan HCT                               35                        95%
                77    Temazepam                                                                     Restoril                            Excluded
                78    Oxybutynin chloride                                                           Ditropan                                 37                        100%
                79    Oxycodone/Acetaminophen                                                       Endocet                                  37                        100%
                80    Acetaminophen/Codeine                                                        Tylenol #3                                37                        100%




    OEI-05-06-00090     D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S          32
A   P   P E N D       I X             ~           B             





                            200 Commonly Utilized Drugs by Dual Eligibles, Continued
                                                                                                                                          Formulary             Percentage
                              Rank                          Generic Name                                 Brand Name
                                                                                                                                          Inclusion              Included
                                 81             Ibuprofen                                              Advil                                   37                    100%
                                 82             Insulin N, Insulin NPH                                 Humulin N                               37                    100%
                                 83             Amoxicillin oral                                       Amoxil                                  37                    100%
                                 84             Polyethylene glycol 3350                               Miralax                                 34                    92%
                                 85             Meloxicam                                              Mobic                                   16                    43%
                                 86             Aripiprazole                                           Abilify                                 37                    100%
                                 87             Insulin R, Insulin Regular                             Humulin R                               37                    100%
                                 88             Benztropine mesylate                                   Cogentin                                37                    100%
                                 89             Estrogens conjugated oral                              Premarin                                36                    97%
                                 90             Amitriptyline HCL                                      Elavil                                  37                    100%
                                 91             Cephalexin                                             Keflex                                  37                    100%
                                 92             Ramipril                                               Altace                                  28                    76%
                                 93             Oxycodone                                              OxyContin                               36                    97%
                                 94             Bupropion                                              Wellbutrin                              37                    100%
                                 95             Fentanyl transdermal                                   Duragesic                               32                    86%
                                 96             Ezetimibe                                              Zetia                                   35                    95%
                                 97             Spironolactone                                         Aldactone                               37                    100%
                                 98             Meclizine                                              Antivert                                33                    89%
                                 99             Cyclobenzaprine                                        Flexeril                                33                    89%
                                100             Mirtazapine                                            Remeron                                 37                    100%
                                101             Sulfamethoxazole/TMP                                   Bactrim                                 37                    100%
                                102             Glimepiride                                            Amaryl                                  31                    84%
                                103             Nitrofurantoin MCR                                     Macrobid                                37                    100%
                                104             Lovastatin                                             Mevacor                                 37                    100%
                                105             Fenofibrate                                            Tricor                                  33                    89%
                                106             Topiramate                                             Topamax                                 37                    100%
                                107             Carbidopa/Levodopa                                     Sinemet                                 37                    100%
                                108             Diazepam                                               Valium                              Excluded
                                109             Enalapril maleate                                      Vasotec                                 36                    97%
                                110             Quinine                                                Quinine SO4                             32                    86%
                                111             Raloxifene                                             Evista                                  37                    100%
                                112             Nitroglycerin patch                                    Nitrodur                                37                    100%
                                113             Multivitamin                                           Thera-vite                          Excluded
                                114             Promethazine                                           Phenergan                               37                    100%
                                115             Acetaminophen                                          Tylenol                             Excluded
                                116             Losartan potassium/HCTZ                                Hyzaar                                  23                    62%
                                117             Nitroglycerin tablet                                   Nitroquick                              37                    100%
                                118             Verapamil                                              Verelan                                 37                    100%
                                119             Diphenhydramine                                        Benadryl                            Excluded




    OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S          33
A   P   P E N D    I X                ~            B            





                    200 Commonly Utilized Drugs by Dual Eligibles, Continued
                                                                                                                                   Formulary              Percentage
                      Rank                         Generic Name                                  Brand Name
                                                                                                                                   Inclusion               Included
                        120            Allopurinol                                             Zyloprim                                 37                   100%
                        121            Lamotrigine                                             Lamictal                                 37                   100%
                        122            Brimonidine tartrate                                    Alphagan                                 37                   100%
                        123            Ferrous sulfate                                         Feosol                              Excluded
                        124            Gemfibrozil                                             Lopid                                    37                   100%
                        125            Lidocaine patch                                         Lidoderm                                 20                       54%
                        126            Carbamazepine                                           Carbatrol                                37                   100%
                        127            Olopatadine HCl eye drops                               Patanol                                  30                       81%
                        128            Naproxen                                                Naprosyn                                 37                   100%
                        129            Irbesartan                                              Avapro                                   24                       65%
                        130            Clonidine HCL patch                                     Catapres patch                           27                       73%
                        131            Cetirizine HCL                                          Zyrtec                                   27                       73%
                        132            Dorzolamide/Timolol maleate                             Cosopt                                   32                       86%
                        133            Oyster shell/vitamin D                                  Oscal-D                             Excluded
                        134            Galantamine HBr                                         Razadyne                               25                         68%
                        135            Ziprasidone                                             Geodon                                   37                   100%
                        136            Hydroxyzine HCL                                         Atarax                                   35                       95%
                        137            Fexofenadine                                            Allegra                                  29                       78%
                        138            Mupirocin                                               Bactroban                                37                   100%
                        139            Mometasone furoate nasal                                Nasonex                                  36                       97 %
                        140            Oxcarbazepine                                           Trileptal                                37                   100%
                                       Balsam peru/Castor oil USP-
                        141                                                                    TBC Aero                                 31                       84%
                                       NF/Trypsin USL
                        142            Rivastigmine tartrate                                   Exelon                                   37                   100%
                        143            Amox TR-K CLV oral                                      Augmentin                                37                   100%
                        144            Glyburide/Metformin                                     Glucovance                               37                   100%
                        145            Metolazone                                              Zaroxolyn                                37                   100%
                        146            Nabumetone                                              Relafen                                  34                       92%
                        147            Timolol optic                                           Timoptic                                 37                   100%
                        148            Enulose                                                 Lactulose                                37                   100%
                                       Tramadol HCl/
                        149                                                                    Ultracet                                 21                       57%
                                       Acetaminophen
                        150            Duloxetine hydrochloride*                               Cymbalta                                 31                       84%
                        151            Rosuvastatin                                            Crestor                                  23                       62%
                        152            Theophylline                                            Theo-dur                                 37                   100%
                        153            Ipratropium bromide inhaled                             Atrovent inhaler                         36                       97%
                        154            Baclofen                                                Lioresal                                 36                       97%
                        155            Pentoxifylline                                          Trental                                  34                       92%
                        156            Rabeprazole sodium                                      Aciphex                                  18                       49%
                        157            Diphenoxylate/Atropine                                  Lomotil                                  34                       92%
                        158            Fosinopril sodium                                       Monopril                                 32                       86%
                        159            Memantine hydrochloride                                 Namenda                                  37                   100%
                    * This drug falls into a protected category that should be included by all formularies. CMS is working to
                    ensure that all plans include this drug as required.


OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S          34
A   P   P E N D          I X              ~           B            



                      200 Commonly Utilized Drugs by Dual Eligibles, Continued
                                                                                                                                        Formulary              Percentage
                       Rank                        Generic Name                                     Brand Name
                                                                                                                                        Inclusion               Included
                         160            Fluvastatin sodium                                  Lescol                                            21                     57%
                         161            Megestrol acetate oral*                             Megace                                            36                     97%
                         162            Calcium carbonate                                   Oyst-cal                                     Excluded
                         163            Sevelamer HCL                                       Renagel                                           31                     84%
                         164            Promethazine/Codeine                                Phenergan w/ codeine                         Excluded
                         165            Senna                                               Senokot                                      Excluded
                                        Cyanocobalamin (synthetic
                         166                                                                Nascobal                                     Excluded
                                        vitamin B12) injectable
                                        Fluticasone propionate
                         167                                                                Flovent                                           34                     92%
                                        inhaled
                         168            Travoprost eye drop                                 Travatan                                          25                     68%
                         169            Ezetimibe/Simvastatin                               Vytorin                                           31                     84%
                         170            Citalopram HBR                                      Celexa                                            37                     100%
                         171            Propranolol                                         Inderal                                           37                     100%
                         172            Clotrimazole/Betamethasone                          Lotrisone                                         32                     86%
                         173            Triamcinolone cream                                 Aristo                                            37                     100%
                         174            Olmesartan medoxomil                                Benicar                                           24                     65%
                         175            Felodipine                                          Plendile                                          35                     95%
                         176            Carisoprodol                                        Soma                                              32                     86%
                         177            Phenobarbital                                       Luminal                                      Excluded
                         178            Lithium carbonate                                   Eskalith                                          37                     100%
                         179            Prednisolone solution                               Prelone                                           37                     100%
                         180            Terazosin                                           Hytrin                                            37                     100%
                         181            Bimatoprost eye drops                               Lumigan                                           34                     92%
                         182            Moxifloxacin HCl                                    Avelox ABC                                        32                     86%
                         183            Desloratadine                                       Clarinex                                          22                     59 %
                         184            Torsemide                                           Demadex                                           35                     95%
                         185            Haloperidol                                         Haldol                                            37                     100%
                         186            Irbesartan/HCTZ                                     Avalide                                           23                     62%
                         187            Loperamide                                          Immodium                                     Excluded
                         188            Buspirone                                           Buspar                                            37                     100%
                         189            Finasteride                                         Proscar                                           35                     95%
                         190            Hydralazine                                         Apresoline                                        37                     100%
                         191            Cefdinir                                            Omnicef                                           28                     76%
                         192            Amiodarone HCL                                      Cordarone                                         37                     100%
                         193            Cilostazol                                          Pletal                                            32                     86%
                         194            Levetiracetam                                       Keppra                                            37                     100%
                         195            Calcitonin salmon                                   Miacalcin                                         35                     95%
                         196            Tiotropium                                          Spiriva                                           37                     100%
                         197            Prednisolone AC eye drop                            Pred-Forte                                        37                     100%
                         198            Dipyridamole/Aspirin                                Aggrenox                                          27                     73%
                         199            Methadone                                           Methadose                                         34                     92%
                         200            Clotrimazole cream                                  Lotrimin                                     Excluded
                      * This drug falls into a protected category that should be included by all formularies. CMS is working to ensure
                      that all plans include this drug as required.
                      Source: OIG Analysis of Formulary Inclusion of Drugs Commonly Used by Dual Eligibles, 2005.
    OEI-05-06-00090      D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N O F C O M M O N LY U S E D D R U G S          35
Δ        A P P E N D I X                                      ~            C             





                            DISTRIBUTION OF DUAL ELIGIBLES AMONG FORMULARIES
                            Dual eligibles were randomly assigned to PDPs for autoenrollment
                            (unless they were among the approximately 10 percent of dual eligibles
                            who were members of an MA plan). Individuals were allocated equally
                            among plan sponsors in a PDP region. If a sponsor offered more than
                            one eligible plan, dual eligibles assigned to that sponsor were allocated
                            equally to each plan. The same formulary is often used by many plans,
                            even those with different sponsors.

                            For each PDP region, we determined the percentage of dual eligibles
                            that will be covered by each formulary based on random assignment.
                            Table 5 shows the percentage of dual eligibles whose formulary
                            inclusion of commonly used drugs will be most broad (covering all 178 of
                            the most commonly used nonexcluded drugs) or more restricted
                            (covering less than 85 percent of these drugs).

TABLE 5: Random Assignment of Dual Eligibles and Formulary Inclusion of Commonly Used Drugs

                                                                                          Percentage of Dual Eligibles Randomly Assigned to PDPs That Include:
 PDP                                                Dual Eligibles                                 100% of                                                     Less Than 85%
                     State(s)
Region                                              Autoassigned                              Commonly Used Drugs                                         of Commonly Used Drugs
  1       Maine, New Hampshire                            63,290                                            18%                                                            18%
          Connecticut, Massachusetts,
  2                                                      289,849                                            17%                                                            39%
          Rhode Island, Vermont
  3       New York                                       499,708                                            23%                                                            32%

  4       New Jersey                                     135,498                                            25%                                                            25%
          Delaware, Maryland,
  5                                                       81,176                                            14%                                                            21%
          Washington, D.C.
          Pennsylvania,
  6                                                      175,674                                            14%                                                            29%
          West Virginia
  7       Virginia                                       101,352                                            15%                                                            23%

  8       North Carolina                                 216,703                                             9%                                                            18%

  9       South Carolina                                 110, 530                                           15%                                                            15%

 10       Georgia                                        135,599                                             8%                                                            25%

 11       Florida                                        326,139                                            17%                                                            33%

 12       Alabama, Tennessee                             295,262                                            25%                                                            25%

 13       Michigan                                       185,486                                            15%                                                            15%




   OEI-05-06-00090          D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S         36
 A    P    P E N D              I X              ~           C             





Random Assignment of Dual Eligibles and Formulary Inclusion of Commonly Used Drugs, Continued

                                                                                               Percentage of Dual Eligibles Randomly Assigned to PDPs That Include:

  PDP                                                     Dual Eligibles                                 100% of                                                     Less Than 85%
                           State(s)
 Region                                                   Autoassigned                              Commonly Used Drugs                                         of Commonly Used Drugs

     14       Ohio                                             169,704                                            25%                                                           25%

     15       Indiana, Kentucky                                169,660                                            18%                                                           18%

     16       Wisconsin                                        109,024                                            17%                                                           17%

     17       Illinois                                         247,254                                            17%                                                           25%

     18       Missouri                                         144,243                                            25%                                                           25%

     19       Arkansas                                          60,770                                             8%                                                           17%

     20       Mississippi                                      129,988                                             9%                                                           18%

     21       Louisiana                                         89,493                                            10%                                                           20%

     22       Texas                                            294,295                                            14%                                                           29%

     23       Oklahoma                                          72,880                                            20%                                                           20%

     24       Kansas                                            38,828                                            10%                                                           30%
              Iowa, Minnesota, Montana,
     25       Nebraska, North Dakota,                          185,129                                             9%                                                           18%
              South Dakota, Wyoming

     26       New Mexico                                        31,082                                            13%                                                           38%

     27       Colorado                                          37,342                                            11%                                                           33%

     28       Arizona                                           44,413                                            30%                                                           50%

     29       Nevada                                            16,895                                            17%                                                           50%

     30       Oregon, Washington                               125,190                                            21%                                                           29%

     31       Idaho, Utah                                       37,018                                            17%                                                           25%

     32       California                                       847,996                                            21%                                                           50%

     33       Hawaii                                            22,460                                            14%                                                           29%

     34       Alaska                                            10,674                                            14%                                                           29%

Source: OIG Analysis of Formulary Inclusion of Drugs Commonly Used by Dual Eligibles, 2005.




      OEI-05-06-00090            D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S         37 

Δ      A P P E N D I X                                         ~            D             



                             MEDICAID COVERAGE OF DRUGS EXCLUDED FROM PART D
                             Of the 200 drugs commonly used by dual eligibles, 22 fall into categories
                             that are statutorily excluded from Medicare Part D coverage. State
                             Medicaid programs have the option to cover drugs in these categories.
                             Table 6 summarizes these 22 drugs, including their categories and the
                             number of State Medicaid programs (of 47 States interviewed) that
                             currently cover and/or plan to cover drugs in these categories.


    TABLE 6: State Medicaid Coverage of Excluded Drugs
                                                                                   # of Drugs (of 200                     States Currently                    States Planning to
Category of Excluded Drugs                                                         Commonly Used)                         Covering (of 47)                   Cover in 2006 (of 47)

Nonprescription drugs                                                                          12                                    45                                     45

Benzodiazepines                                                                                 5                                    47                                     46

Prescription vitamins and mineral products                                                      3                                    35                                     35

Barbiturates                                                                                    1                                    46                                     45

Drugs for symptomatic relief of cough and colds                                                 1                                    33                                     32


    Source: OIG Interviews With States and Analysis of Formulary Inclusion of Common Drugs for Dual Eligibles, 2005.




OEI-05-06-00090              D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S        38
Δ   A P P E N D I X                                 ~            E             



                  AGENCY COMMENTS 





OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   39
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   40
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   41
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   42
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   43
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   44
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   45
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   46
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   47
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   48
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   49
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   50
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   51
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   52
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   53
A G   E N     C Y      C O            M M E N T                             S 





 OEI-05-06-00090    D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   54
Δ   A C K N O W L E D G M E N T S                                                                              





                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Erin Lemire, Project Leader
                  Louise Schoggen, Program Analyst

                  Mark Stiglitz, Program Analyst
                  Janet Kilian, Intern

                  Linda Boone Abbott, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch




OEI-05-06-00090   D U A L E L I G I B L E S ’ T R A N S I T I O N : PA R T D F O R M U L A R I E S ’ I N C L U S I O N   OF   C O M M O N LY U S E D D R U G S   55
